STATE OF SOUTH DAKOTA

OFFICE OF ATTORNEY GENERAL
JASON R. RAVNSBORG
ATTORNEY GENERAL

1302 East Highway 14, Suite 1
Pierre, South Dakota 57501-8501
Phone (605) 773-3215
Fax (605) 773-4106
TTY (605) 773-6585
http://atg.sd.gov/

CHARLES D. McGUIGAN
CHIEF DEPUTY ATTORNEY GENERAL

June 29, 2020

Scott Harris
Clerk of Court
U.S. Supreme Court
1 First Street NE
Washington, DC 20543
Re:

Piper v. Young, No. 19-1338

Dear Mr. Harris:
We represent respondent in Piper v. Young, No. 19-1338. Petitioner’s petition
for certiorari was docketed on June 4, 2020. The brief in opposition is
currently due July 6, 2020. Because of the due date’s proximity to the holiday
weekend and the consequent unavailability of support staff for several days
surrounding the holiday, as well as respondent’s counsel’s professional
obligations in other matters, we respectfully move for a 30-day extension of
time to file respondent’s brief to and including August 5, 2020.
Sincerely,
/s/ Paul S. Swedlund
Paul S. Swedlund
Counsel for Respondent
PSS/mn
cc:

Ryan Kolbeck, Counsel for Petitioner

